                          U.S.    ELECTION ASSISTANCE COMMISSION 

                                     OFFICE OF INSPECTOR GENERAL 

                                  1225 New York Ave. NW - Suite 1100 

                                        Washington, DC 20005 




                                                                           September 28, 2007



Memorandum

To:             Thomas Wilkey
                Executive Director

From:           Curtis Crider    ~           fAJ·
                Inspector General

Subject:        Non Compliance with the Federal Information Security Management Act
                by the U.S. Election Assistance Commission
                (Assignment No. I-EV -EAC-03-07)

        The EAC has made improvements in the information security area, but additional
actions are needed to bring the EAC into compliance with the Federal Information
Security Management Act (FISMA) and Office of Management and Budget (OMB)
guidelines.

        FISMA (Section 3544) requires the Head of each Federal agency to provide
"information security protections commensurate with the risk and magnitude of the harm
resulting from unauthorized access, use, disclosure, disruption, modification, or
destruction of -­

(i) information collected or maintained by or on behalf of the agency; and

(ii) information systems used or operated by an agency or by a contractor of an agency or
other organization on behalf of an agency."

       EAC is a small Federal agency; it has an annual operating budget of
approximately $16 million and has 38 employees and contractors. More importantly, it
does not own or operate any information technology (IT) systems. The EAC uses a
Federal service provider, the General Services Administration (GSA) for its information
technology needs. Thus, we believe, the impact of its non compliance is minor.
Nonetheless, the Office of Management and Budget (OMB) advised l in its fiscal year
2007 reporting requirements that the EAC and GSA have a shared responsibility for
FISMA compliance.




1 See OMB Memorandum M-07-19, FY 2007 Reporting Instructions/or the Federal Information Security
Management Act, dated July 25,2007.
DISCUSSION

Congress authorized the EAC with the passage of the Help America Vote Act (HA VA) in
October 2002. According to HA V A, the duties of EAC are to "serve as a national
clearinghouse and resource for the compilation of information and review of procedures
with respect to the administration of Federal Elections ...." EAC's first full year of
operation was fiscal year 2004.

        The General Services Administration (GSA) provides administrative support and
related IT services for personnel management, payroll, and financial management to EAC
under three reimbursable agreements. GSA also furnishes IT support by maintaining
EAC's Local Area Network and electronic mail. EAC's website is operated by an
independent contractor.

       EAC has not yet established policies and procedures for information security or
privacy management.


RECOMMENDATIONS

We recommend that the Executive Director:

   1. 	 Establish and implement policies and procedures for information security and
        privacy management.

   2. 	 Comply with the applicable provisions of FISMA and OMB implementing
        guidance.

AGENCY COMMENTS

The EAC recently entered into two key contracts with third parties to comply with
procedural requirements. First, the EAC contracted with firm to create a Continuity of
Operations Plan (COOP), which is required by National Security Presidential Directive
51. The EAC anticipates receiving a COOP from the contractor on or before December
31, 2007. In addition to the COOP, the EAC entered into a contract with another firm to
assist in (1) creating policies and procedures for processing Freedom of Information
requests, (2) giving public notice of meetings pursuant to the Government in the Sunshine
Act, (3) publishing a policy concerning records under the Privacy Act, (4) creating a
common rule for grants, and (5) creating Touhy regulations. The EAC anticipates
receiving a completed project from the firm on or before April 30, 2008. EAC has
worked with the Office of Personnel and Management to identify an individual to assist
in the development of agency policies and procedures including those identified in the
recommendations of this report. It is anticipated that the contractor will begin work
shortly after the beginning of the fiscal year.




                                            2

RESPONSE TO MEMORANDUM

       Please provide a response to this memorandum by November 3,2007. Your reply
should indicate whether you agree or disagree with the recommendations and, if
applicable, include a plan of action for implementing the recommendations. The plan
should include target dates and the name of the official responsible for implementing the
recommendations

        The legislation creating the Office of Inspector General requires that we report to
the Congress semiannually on all reports issued, actions taken to implement our
recommendations, and recommendations that have not been implemented. Therefore,
this report will be included in the next semiannual report.




                                             3

